NO. 19-_____

In the
Supreme Court of the United States
JON KRAKAUER,

Petitioner,
v.

STATE OF MONTANA, BY AND THROUGH ITS
COMMISSIONER OF HIGHER EDUCATION
CLAYTON T. CHRISTIAN,

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Montana
PETITION FOR WRIT OF CERTIORARI

PETER MICHAEL MELOY

COUNSEL FOR PETITIONER

MELOY LAW FIRM

P.O. BOX 1241
HELENA, MT 59624
(406) 442-8670
MIKE@MELOYLAWFIRM.COM
OCTOBER 31, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i

QUESTION PRESENTED
In the process of writing a book about sexual
assault on a college campus, Missoula: Rape and the
Justice System in a College Town, Petitioner and
Author Jon Krakauer sought records regarding the
expulsion of the University of Montana’s starting
football quarterback and his subsequent reinstatement
by the Montana Commissioner of Higher Education
without a written decision. Krakauer sought to learn
the process and rationale for the reversal of the star
player’s expulsion. Citing the public interest in the
case and Montana’s explicit constitutional right-toknow provision, the Montana District Court granted
access to these records. The Montana Supreme Court
overruled, citing the student’s competing and heightened right to privacy conferred, in part, by 20 U.S.C.
§ 1232g (FERPA). The Montana Supreme Court made
no mention of this Court’s decision in Gonzaga v. Doe,
536 U.S. 273, 278-89 (2002), despite being briefed by
the Petitioner. Gonzaga held that FERPA is a spending
bill that confers no individual private rights.
THE QUESTION PRESENTED IS
Does FERPA confer an individual right to privacy
sufficient to block a court from ordering the release of
personally identifiable information about a high profile
university athlete on an issue of compelling public
interest?

ii

LIST OF PROCEEDINGS
CIVIL PROCEEDINGS IN KRAKAUER V. MONTANA ET AL.
Montana Supreme Court
No. DA 18-00374

Jon Krakauer, Petitioner-Appellee-Cross-Appellant, v.
State of Montana, by and through its Commissioner
of Higher Education, Clayton Christian, RespondentAppellant, v. John Doe, Intervenor and Appellant.
(Krakauer II )
Decision Date: July 3, 2019
________________________
Montana First Judicial District Court,
Lewis and Clark County
Cause No. ADV 14-117

Jon Krakauer, Petitioner, v. State of Montana, by and
through its Commissioner of Higher Education, Clayton
Christian, Respondent.
Decision Date: October 19, 2017
________________________
Montana Supreme Court
No. DA 15-0502

Jon Krakauer, Petitioner-Appellee, v. State of Montana,
by and through its Commissioner of Higher Education,
Clayton T. Christian, Respondent-Appellant.
(Krakauer I )
Decision Date: September 19, 2016

iii

________________________
Montana First Judicial District Court,
Lewis and Clark County
Cause No. CDV-2014-117

Jon Krakauer, Petitioner, v. State of Montana, by and
through its Commissioner of Higher Education, Clayton
Christian, Respondent.
Decision Date: September 12, 2014
________________________
RELATED PROCEEDINGS
United States District Court for the
District of Montana, Missoula Division
No. CV 12-77-M-DLC

John Doe, Plaintiff, v.
The University of Montana, Defendant.
Decision Date: June 26, 2012
________________________
Montana Fourth Judicial District Court,
Missoula County
Cause No. DC-12-352

State of Montana, Plaintiff, v.
Jordan Todd Johnson, Defendant.
Decision Date: March 1, 2013

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
LIST OF PROCEEDINGS .......................................... ii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS................................ 4
STATEMENT OF THE CASE .................................... 4
REASONS FOR GRANTING THE WRIT ............... 14
I.

THE MONTANA SUPREME COURT’S DECISION
CONFLICTS WITH GONZAGA UNIV. V. DOE,
536 U.S. 273 (2002). ........................................ 15

II. THE MONTANA SUPREME COURT’S DECISION
CONFLICTS WITH THE MARYLAND COURT OF
APPEALS, THE STATE’S HIGHEST COURT. ......... 17
III. THE QUESTION PRESENTED RAISES A PUBLIC
ISSUE OF NATIONAL IMPORTANCE REGARDING
UNIVERSITIES’ PROTECTION OF HIGH PROFILE
STUDENT ATHLETES FROM ALLEGATIONS OF
SEXUAL ASSAULT. ............................................ 24
CONCLUSION.......................................................... 26

v
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS

Krakauer v. State, 396 Mont. 247,
445 P.3d 201 (2019) (Krakauer II ) .................... 1a
Montana First Judicial District Court’s Decision
(October 19, 2017) ............................................ 33a

Krakauer v. State, 384 Mont. 527,
381 P.3d 524 (2016) (Krakauer I ) ................... 44a
Krakauer v. State, 2014 Mont. Dist. LEXIS 33

(September 12, 2014)........................................ 81a

Doe v. Univ. of Mont., No. CV-12-77-M-DLC

(June 26, 2012) ................................................. 96a

Order of the Supreme Court of Montana Denying
Petition for Rehearing (August 6, 2019) ........ 107a
Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g .......................... 110a
34 CFR Parts A and D .......................................... 129a
Petition for Rehearing
(July 17, 2019) (Krakauer II ) ........................ 171a

vi
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES

Page

CASES

Doe v. Univ. of Mont., No. CV 12-77-M-DLC,

2012 U.S. Dist. LEXIS 88519
(D. Mont. June 26, 2012) ................................... 5, 6

DTH Media Corp. v. Folt,

816 S.E.2d 518 (N.C. Ct. App. 2018).............. 22, 23

Gonzaga Univ. v. Doe,

536 U.S. 273, 278-89 (2002) ........................ passim

Great Falls Tribune v. Mont. PSC,

2003 MT 359, 319 Mont. 38,
82 P.3d 876 (2003) ............................................. 19

Kirwan v. Diamondback,

346 Md. 372, 697 A.2d 112 (1997) .................... 19

Kirwan v. Diamondback,

352 Md. 74, 721 A.2d 196 (Md. 1998) .......... passim

Krakauer v. State, 384 Mont. 527, 381 P.3d 524
(2016) (Krakauer I )................................ 1, 3, 8, 16
Krakauer v. State, 396 Mont. 247, 445 P.3d
201 (2019) (Krakauer II ) ........................... passim
CONSTITUTIONAL PROVISIONS
Mont. Const. Art. II, § 9.................................... 4, 7, 19

vii
TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1257(a) ..................................................... 1
42 U.S.C. § 1983 ........................................................ 15
Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g ........................ passim
MCA § 20-25-515 ...................................................... 12
JUDICIAL RULES
Sup. Ct. R. 10 ............................................................ 14
REGULATIONS
34 C.F.R. § 99.3 ................................................... 16, 20
OTHER AUTHORITIES
Jon Krakauer, Missoula: Rape and the Justice
System in a College Town ................................ i, 5
Mary Margaret Penrose,

Tickets, Tattoos and Other Tawdry
Behavior: How Universities Use Federal
Law to Hide Their Scandals,

33 Cardozo L. Rev. 1555 (April 2012) ............... 25

Rob Silverblatt,

Hiding Behind Ivory Towers: Penalizing
Schools That Improperly Invoke Student
Privacy to Suppress Open Records
Requests, 101 Geo. L.J. 493 (2013) ................... 25

1

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner Jon Krakauer respectfully petitions for
a writ of certiorari to review the judgment of the
Montana Supreme Court.

OPINIONS BELOW
The Montana Supreme Court decision for which
Krakauer seeks issuance of the writ appears at
Krakauer v. State, 396 Mont. 247, 445 P.3d 201 (2019)
(Krakauer II ) (App.1a), which reviewed and reversed
the Montana First Judicial District Court’s October
19, 2017, decision (App.33a) and May 15, 2018, final
judgment, both of which are unreported. The district
court’s ruling was issued after previous remand from
the Montana Supreme Court in Krakauer v. State, 384
Mont. 527, 381 P.3d 524 (2016) (Krakauer I ) (App.44a).
The original trial court ruling was issued September 12,
2014, Krakauer v. State, 2014 Mont. Dist. LEXIS 33
(App.81a), and final judgment July 6, 2015, Krakauer
v. State, which is unreported.

JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. § 1257(a) which provides that “[f]inal judgments or decrees rendered by the highest court of a
State in which a decision could be had, may be reviewed

2
by the Supreme Court by writ of certiorari where the
validity of a treaty or statute of the United States is
drawn in question.” The validity of FERPA is at issue
in this action. Specifically, the federal question sought
to be reviewed—whether FERPA blocks a court from
ordering the release of personally identifying information about a high profile individual on an issue
with a compelling public interest—has been raised
since the lawsuit’s inception.
The federal question was first raised by the
Respondent Commissioner as a defense to Petitioner’s
initial complaint seeking public documents. The First
Judicial District Court for the State of Montana,
Lewis and Clark County, determined in its September
12, 2014, decision on page 7 that “[t]he plain meaning
of the language used in FERPA makes it clear that
the purpose of the act is to discourage a system or
practice allowing disclosure of personal student
information. The Court concludes that FERPA does not
preclude release of the records in the circumstances
presented in this case.” (App.89a).
On appeal, the Montana Supreme Court reversed
and determined that the University’s release of a
specific student’s records to Krakauer would violate
FERPA § 1232g. Specifically, the Montana Supreme
Court held that “had the Commissioner released the
documents that Krakauer originally requested, using
the specific student’s name, he would have violated
the statute. FERPA and its accompanying regulatory
scheme, including its expanded definition of “Personally
Identifiable Information,” (App.57a, 71a) prohibited
the unilateral release of the requested documents by
the Commissioner, as Krakauer clearly knew the

3
identity of the student that he named specifically in his
request.” Krakauer I, ¶ 24. (App.57a).
The Montana Supreme Court noted several
FERPA exceptions, but determined that the record was
insufficient to determine their applicability and therefore remanded the action back to the district court to
conduct an in camera review. Krakauer I, ¶¶ 26-30.
The Montana Supreme Court determined that FERPA’s
strong public policy of protecting the privacy of student
records created an “enhanced privacy interest” which
“must be considered and factored into the constitutional balancing test on remand.” Krakauer I, ¶ 37.
(App.66a).
On remand, the First Judicial District Court for
the State of Montana conducted the ordered in camera
review on August 3, 2017, and issued its decision
October 19, 2017, holding that the student had no
reasonable or protectable privacy interests and ordered
release of the documents pursuant to FERPA’s court
order exception in § 1232g(b)(2)(B). The Montana
Supreme Court again reversed the district court,
determining that “the District Court erred when it
held Doe did not have a privacy interest in his
educational records,” an interest which it determined
was “rooted in” part “on FERPA.” Krakauer II, ¶¶ 28,
31. (App.18a). The judgment of the Montana Supreme
Court in Krakauer II was entered July 3, 2019.
Krakauer timely filed a Petition for Rehearing,
in which he questioned the Montana Supreme Court’s
failure to decide several issues he raised regarding
the applicability of FERPA and several of its exceptions.
(App.170a). The Montana Supreme Court denied summarily the Petition on August 6, 2019. (App.107a).

4

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The relevant federal statutory provisions at issue
of the Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g; 34 CFR Part 99, Parts
A and D, are lengthy, and their pertinent text is
reproduced in the Appendix. (App.110a, 129a). The
following provision of the Montana Constitution is
implicated:
RIGHT TO KNOW. No person shall be deprived of
the right to examine documents or to observe the
deliberations of all public bodies or agencies of
state government and its subdivisions, except in
cases in which the demand of individual privacy
clearly exceeds the merits of public disclosure.
Article II, Section 9, Mont. Const.
The right of individual privacy asserted by Intervenor John Doe is found in Article II, Section 10, Mont.
Const., which provides that “[t]he right of individual
privacy is essential to the well-being of a free society
and shall not be infringed without the showing of a
compelling state interest.”

STATEMENT OF THE CASE
This case involves the rising societal and cultural
concerns of sexual assaults and rapes on university
campuses, especially those committed by star athletes,

5
many of which have garnered national media attention.
This dispute involves one of those instances at the
University of Montana (“University”) in Missoula,
Montana. Petitioner Jon Krakauer, a well-known journalist, investigated and published a book chronicling
instances of alleged sexual misconduct on or near the
University campus. In connection with his book,
Krakauer sought records from the Montana Commissioner of Higher Education related to allegations of a
sexual assault committed by the University’s starting
football quarterback and resulting discipline by the
University.
Specifically, Krakauer filed a request with the
Commissioner’s office on January 17, 2014, naming
the student athlete and asking for “the opportunity
to inspect or obtain copies of public records that concern the actions of the Office of the Commissioner of
Higher Education in July and August 2012 regarding
the ruling by the University Court of the University
of Montana in which student . . . was found guilty of
rape and was ordered expelled from the University.”
Krakauer named the high-profile student athlete
because his identity was known as a result of a very
publicized criminal trial. Krakauer reasonably deduced,
from his knowledge of the case, Doe v. Univ. of Mont.,
No. CV 12-77-M-DLC, 2012 U.S. Dist. LEXIS 88519 (D.
Mont. June 26, 2012) (App.96a), that the Commissioner
must have overturned the University Court’s and
President Engstrom’s decision and sanction of expulsion, noting that the student “remained in school and
continued to participate as the Grizzly quarterback.”
In support of his petition, Krakauer submitted
documents that the United States District Court for

6
the District of Montana had previously unsealed and
released in Doe, where the unnamed student initiated
the action under seal, seeking a preliminary injunction
halting the University’s disciplinary proceedings against
him. The documents, made a part of this record,
indicate that after a female student alleged that
Doe had raped her in an off-campus apartment, the
University initiated an investigation into a possible
violation of the Student Conduct Code. Dean of Students Charles Couture determined that Doe committed
sexual intercourse without consent, and as sanctions,
recommended Doe’s immediate expulsion from the
University and restriction from all University property
and University-sponsored events. Doe appealed to the
University Court, a body made up of faculty, staff,
and students appointed to hear disciplinary matters.
The University Court conducted a hearing and
concluded by a 5-2 vote that Doe committed sexual
intercourse without consent, and further concluded
by a unanimous vote of 7-0 that he should be sanctioned
by expulsion from the University. Pursuant to the
Student Conduct Code, Doe requested that the University Court’s determination be reviewed by President
Engstrom. President Engstrom upheld the University
Court’s findings and proposed sanction and determined
that Doe was not denied a fair hearing. Doe then
appealed President Engstrom’s decision to the Commissioner, whose office acknowledged receipt of the appeal,
but never issued a public decision. This decision, and
related documents, form the basis for this action.
In response to Krakauer’s request, the Commissioner refused to acknowledge that such records existed,
and further refused to permit inspection or release of

7
any such documents, asserting that both FERPA and
state law prevented him from doing so. When Krakauer’s request was denied by the Commissioner,
Krakauer initiated this action by filing a petition in
the First Judicial District Court, on February 12, 2014,
citing the explicit right-to-know under the Montana
Constitution, which provides that “[n]o person shall
be deprived of the right to examine documents or to
observe the deliberations of all public bodies or
agencies of state government and its subdivisions,
except in cases in which the demand of individual
privacy clearly exceeds the merits of public disclosure.” Art. II, § 9, Mont. Const. The parties filed crossmotions for summary judgment, and after a hearing,
the Montana district court granted summary judgment to Krakauer, and ordered the Commissioner to
“make available for inspection and/or copying within
21 days” the requested records, with students’ names,
birthdates, social security numbers, and other identifying information redacted.
The Commissioner appealed to the Montana
Supreme Court, which initially dismissed the case without prejudice, as the lower court had not yet addressed
the issue of attorney fees. The court awarded fees to
Krakauer on June 19, 2015, and the Commissioner
again appealed. On appeal, the Montana Supreme
Court reversed and remanded the district court’s
decision:
Having concluded that the records in question
in this case appear to fall under the
“Personally Identifiable Information” protection granted by FERPA, and also having
concluded that FERPA and state statute

8
provide an exception for release of information pursuant to a lawfully issued court
order, we remand this case to the District
Court for an in camera review of the documents in question. After giving due consideration to the unique interests at issue in
this case, as discussed herein, the District
Court will re-conduct the constitutional
balancing test and determine what, if any,
documents may be released and what redactions may be appropriate. As noted above,
the exception to FERPA that allows for
release of documents pursuant to a court
order requires advance notice to the affected
student or parents, and a district court must
comply with this directive before releasing
protected information. See Opinion, ¶ 27 n.
6. Because we remand this case for further
proceedings, the award of attorney fees is
vacated.

Krakauer I, ¶ 42. (App.45a).
In Krakauer II, the Montana Supreme Court
characterized its remand instructions in Krakauer I
as a directive “to conduct an in-camera review of
Doe’s records with the following instructions”:
1)

determine whether there was an adverse
final ruling against Doe during his student
disciplinary proceedings, which would have
allowed for the release of certain, limited
information as an exception to the general
prohibition against the release of educational
records under the Family Educational Rights

9
and Privacy Act of 1974, as amended, 20
U.S.C. § 1232g (FERPA);
2)

factor the enhanced privacy interests of
students into the analysis of whether the
Montana Constitution permits disclosing
Doe’s educational records; and

3)

determine whether the potential for redacting Doe’s personally identifying information
affects the privacy analysis and the ultimate determination about what records, if
any, can be released.

Krakauer II, ¶ 5. (App.3a-4a).
After remand, the district court granted Doe a
motion to intervene in the case, and then conducted
the in camera review of his records. The district court
determined that Doe did not have a subjective or actual
expectation of privacy in the records at issue, which
rendered the issue of redaction moot, because his
personal information was already available to the
public through unsealed court records and significant
media coverage of the public criminal trial. The district
court also concluded that even assuming Doe did have
a privacy interest in his records, his privacy interest
did not clearly exceed the merits of public disclosure
due to his status as a high-profile student-athlete at
the time of the disciplinary proceedings, the scholarships he received from the University, the attendant
publicity of the alleged sexual assault, and the public’s
compelling interest in understanding the disciplinary
procedures employed by a state university. Specifically,
the First Judicial Court of the State of Montana,
reasoned:

10
Here, weighing favorably in Doe’s right to
privacy is his enhanced privacy interest in
his student records. On the other hand, a
variety of factors weigh against Doe’s right
to privacy and in favor of the public’s right
to know. First, Doe’s status as a high-profile
student athlete weighs against his right to
privacy. Prior to the commencement of disciplinary proceedings and criminal litigation
against him, Doe was a well-known individual in Montana and enjoyed a position of
prominence and popularity by virtue of his
athletic position. Second, the University of
Montana is a public institution, and Doe,
while not a paid athlete, receives valuable
consideration for his skills in the form of an
athletic scholarship. Although he is not a
public official or university employee, Doe is
a public representative of the University of
Montana. Third, the details of Doe’s alleged
bad acts have been publicly aired through
national and local media coverage, a publicly
held criminal trial, and a nationally bestselling book. Fourth, the public has a compelling
interest in understanding the disciplinary
procedures employed by a state university,
especially where the student in question is a
prominent and popular campus figure whose
education is paid for in part by public funds.
(District Court’s October 19, 2017, Order on Motion
for Release of Records, pgs. 8-9). (App.16a-17a).
The district court denied Krakauer an award of
attorney fees. Both the Commissioner and Doe appealed

11
the district court’s decision and Krakauer crossappealed the order denying him attorney fees. The
Montana Supreme Court again reversed, determining
that FERPA and state statutory protections “provid[ed]
students like Doe with steadfast assurances that the
university system will affirmatively protect their
records from disclosure, just as the University and
the Commissioner have done here.” Krakauer II, ¶ 21.
(App.10a-11a). Citing 20 U.S.C. § 1232g(b)(2)(B) of
FERPA, the Montana Supreme Court reasoned that
“Doe had notice the University could only disclose the
results of his disciplinary proceedings to an alleged
victim, essential University personnel, or other
necessary individuals in compliance with federal or
state law, which would include compliance with a
judicial order or subpoena.”
The Montana Supreme Court reasoned further that
“[t]he University did not have a policy of disclosing
educational records” and “absent Doe’s consent or a
judicial subpoena, the University could only disclose
specific information from Doe’s records in limited
circumstances.” Krakauer II, ¶ 21. (App.11a). The
Montana Supreme Court also rejected the district
court’s rationale that the University’s Student-Athlete
Conduct Code and “the public’s independent knowledge
of certain information contained in a student’s private
educational records” diminished the student’s actual
or subjective expectation of privacy in his records.
Krakauer II, ¶¶ 21-25. (App.13a).
The Montana Supreme Court ultimately “conclude[d] Doe had an actual or subjective expectation of
privacy in his educational records” and “did not have
notice of possible public disclosure of those records

12
. . . based on FERPA, § 20-25-515, MCA, the University’s Student Conduct Code, and the facts of this
case.” Krakauer II, ¶ 28. (App.15a). The Court went
on to hold that FERPA and “state statutes providing
enhanced privacy protections support the idea that
society is willing to recognize Doe’s privacy expectation
is reasonable.” Krakauer II, ¶ 30. (App.17a) Accordingly, the Montana Supreme Court declared that Doe
did “have a privacy interest in his education records”
which, under the facts of the case, “clearly exceed[ed]
the merits of public disclosure.” Krakauer II, ¶¶ 31,
43. (App.21a).
With regard to redaction, the Montana Supreme
Court rejected the district court’s rationale that there
is no practical difference between releasing redacted
and unredacted documents when the identity of the
student is known, disagreeing with the “resulting
implication that the futility of redaction weighs in
favor of releasing private records. Where redaction is
futile—i.e., where redaction cannot protect individual
privacy interests—that futility cannot weigh in favor
of releasing the private records.” In so holding, the
Montana Supreme Court reasoned:
Krakauer could have requested information
about the process by which the University
or the Montana University System generally
handle sexual assault or how the Commissioner reviews appeals of student disciplinary proceedings. He could have requested
general information about all sexual assault
complaints over an appropriate, specified
period of time, and he could have requested
information about the appeals the Com-

13
missioner reviewed over that time. Had
Krakauer done so, the Commissioner, under
the appropriate circumstances, could have
responded by supplying the appropriate
records with each student’s personally identifying information redacted to protect his
or her privacy interests. But Krakauer
requested information pertaining to one
specific student, and now, no amount of
redaction can protect that student’s privacy
interests. Were Krakauer to receive Doe’s
records, there would be no doubt to whom the
records pertained. Therefore, Doe’s privacy
interest in his educational records, which is
enhanced, reasonable, and weighs heavily
in favor of nondisclosure to begin with,
receives no protection at all in the constitutional inquiry and balancing because redaction is futile.

Krakauer II, ¶ 35. (App.19a-20a).
The Montana Supreme Court therefore reversed
the Montana district court’s decision ordering the
Commissioner of Higher Education to release Doe’s
student disciplinary records, affirmed the denial of
attorney fees, and dismissed Krakauer’s petition with
prejudice. Krakauer II, ¶ 48. (App.27a). The Montana
Supreme Court assumed the applicability of FERPA
and did not rule upon several issues raised by
Krakauer, including whether any of the exceptions in
§ 1232(g) applied.
In Justice Jim Rice’s concurring and dissenting
Opinion, joined by Chief Justice Mike McGrath
and Justice Beth Baker, he would have ordered “a

14
more limited release of information setting forth the
Commissioner’s decision and the grounds on which he
made it” opining that “a limited release of information
is required to satisfy the constitutional right to know,
and is authorized under FERPA as necessary in
response to a court order.” Krakauer II, ¶ 58. (App.32a).
Krakauer now petitions this Court to review the
Montana Supreme Court’s majority decision and issue
a writ of certiorari.

REASONS FOR GRANTING THE WRIT
“Review on a writ of certiorari is not a matter of
right, but of judicial discretion” and “will be granted
only for compelling reasons.” Sup. Ct. Rule 10. Under
Sup. Ct. Rule 10(c), the United States Supreme Court
will be inclined to exercise its discretionary review of
a state’s highest court if “a state court . . . has decided
an important federal question in a way that conflicts
with relevant decisions of this Court.” Under Sup. Ct.
Rule 10(b), this Court will be inclined to exercise its
discretionary review if “a state court of last resort
has decided an important federal question in a way
that conflicts with the decision of another state court
of last resort or of a United States court of appeals.”
As argued below, the Montana Supreme Court has
decided an important federal question regarding
FERPA which conflicts with both a relevant decision
of this Court in Gonzaga Univ. v. Doe, 536 U.S. 273
(2002), and a decision of the Maryland Court of Appeals,
the State’s highest court.

15
I.

THE MONTANA SUPREME COURT’S DECISION
CONFLICTS WITH GONZAGA UNIV. V. DOE, 536 U.S.
273 (2002).

In Gonzaga Univ. v. Doe, 536 U.S. at 278-89, a
Gonzaga University undergraduate sued the school and
teacher under 42 U.S.C. § 1983, alleging a violation
of FERPA. The student was planning to become an
elementary teacher, and under Washington State Law,
all new teachers required an affidavit of good moral
character from their graduating college. The teacher
in charge of certifying such affidavits, overheard a
student conversation discussing sexual misconduct
by the undergraduate student, and after an investigation, refused to certify the affidavit. The student
sued, claiming a violation of his confidentiality rights.
This Court ruled that FERPA, which prohibits the
federal government from funding educational institutions that release education records to unauthorized
persons, does not create a right which is enforceable
under 42 U.S.C. § 1983. In so ruling, the Court
declared that FERPA is merely spending legislation
which prohibits “the federal funding of educational
institutions that have a policy or practice of releasing
education records to unauthorized persons.” Gonzaga,
536 U.S. at 276. In other words, this Court held that
the statute addresses only federal funding and does
not confer any enforceable right of privacy which
could serve as a basis for withholding student records.
Despite this ruling, in Krakauer II, the Montana
Supreme Court applied FERPA’s non-disclosure
provisions in violation of Krakauer’s explicit right to
know under the Montana Constitution, despite acknowledging that “[t]he University did not have a policy

16
of disclosing educational records.” Krakauer II, ¶ 21.
(App.11a). Indeed, nowhere in either Krakauer I or
Krakauer II does the Montana Supreme Court even
cite to Gonzaga, yet it applied FERPA and its nondisclosure provisions to confer a substantive right of
enhanced privacy to a student and to reason that if a
public records requester reasonably knows the student’s identify, the information cannot be disclosed or
redacted.
In footnote 7 of Krakauer II, the Montana Supreme
Court interpreted FERPA in a way which conflicts with
Gonzaga:
FERPA prohibits institutions from releasing
educational records or personally identifiable
information contained therein without written
consent. 20 U.S.C. § 1232g(b)(1). In the definition of Personally Identifiable Information,
the regulations include “[i]nformation requested by a person who the educational agency
or institution reasonably believes knows the
identity of the student to whom the education
record relates.” 34 C.F.R. § 99.3 (Personally
Identifiable Information at (g)). Where the
public requests a student’s records by name,
FERPA’s regulations assume the information
sought would allow the public to personally
identify the student. Therefore, the regulations prohibit universities from releasing a
student’s information, even redacted, when
a requestor specifically asks for a student’s
information by name. See 34 C.F.R. § 99.3(g);
see also Krakauer I, ¶ 24. (App.20a).

17
FERPA does not prohibit anything and certainly
does not yield to a state’s constitutional right to know
provision, yet the Montana Supreme Court held
otherwise in violation of this Court’s ruling in Gonzaga.
The Montana Supreme Court erred in determining that
FERPA creates an “enhanced” and “robust” privacy
right protection which preempts a state right-to-know
constitutional provision. Krakauer II, ¶ 17. (App.8a).
In short, the Montana Supreme Court, in direct conflict
with Gonzaga, declared that FERPA’s non-disclosure
provisions conferred a substantive right of privacy to
a Montana student athlete, trumping Petitioner’s
(and the public’s) constitutional right-to-know.
While the Court cites to FERPA’s exceptions—such
as the “court order or subpoena” exception under 20
U.S.C. § 1232g(b)(2)(B) or the exception in 20 U.S.C.
§ 1232g(b)(6)(B), permitting disclosure of the final
results of a disciplinary proceeding against a student
who is an alleged perpetrator of a crime of violence or
a nonforcible sex offense, “if the institution determines
as a result of that disciplinary proceeding that the
student committed a violation of the institution’s
rules or policies with respect to such crime or offense”—
it did not apply, analyze them, or discuss why they
did not apply to the information and records sought
by Krakauer.
II.

THE MONTANA SUPREME COURT’S DECISION
CONFLICTS WITH THE MARYLAND COURT OF
APPEALS, THE STATE’S HIGHEST COURT.

In Kirwan v. Diamondback, 352 Md. 74, 721 A.2d
196 (Md. 1998), a case decided prior to Gonzaga, Maryland’s highest appellate court addressed the similar
issue of whether the Maryland Public Information

18
Act (“MPIA”), or FERPA, authorized the university’s
non-disclosure of information related to a specific
student athlete. In February of 1996, the University of
Maryland, College Park campus, notified the National
Collegiate Athletic Association (NCAA) that a studentathlete accepted money from a former coach to pay
the student-athlete’s parking tickets. The studentathlete was suspended for three games as a result.
Kirwan, 721 A.2d at 198. The student newspaper, The
Diamondback, began investigating this incident and
other alleged incidents involving the men’s basketball
team, including whether the University sanctioned
team members’ illegal parking on campus. Kirwan,
721 A.2d at 198.
In connection with its investigation, The Diamondback, requested from the University the following
documents:
(1) copies of all correspondence between the
University and the NCAA involving the
student-athlete who was suspended and any
other related correspondence during February
1996; (2) records relating to campus parking
violations committed by other members of
the men’s basketball team; and (3) records
relating to parking violations committed by
Gary Williams, who is the head coach of the
men’s basketball team.

Kirwan, 721 A.2d at 198.
The University relied on the MPIA to deny the
requests. The University claimed that any parking
tickets received by the coach were personnel and
financial records exempt from disclosure under MPIA.
The University also asserted that the documents

19
relating to the student-athletes were educational
records prohibited from disclosure by FERPA, 20 U.S.C.
§ 1232(g). The Diamondback initiated suit to compel
the University to disclose the requested documents.
The lower court granted summary judgment in favor
of The Diamondback and the University appealed.
Kirwan, 721 A.2d at 199. Before the Court of Special
Appeals decided the case, the Maryland Court of
Appeals issued a writ of certiorari. Kirwan v.
Diamondback, 346 Md. 372, 697 A.2d 112 (1997).
The state high court affirmed, determining that
the requested records did not qualify as either
“personnel” or “financial” records under the MPIA,
noting the “general presumption in favor of disclosure
of government or public documents.” Kirwan, 721 A.2d
at 199. Montana’s statutory open records laws do not
exempt categories of documents, but Montana shares
an openness presumption, which emanates from the
explicit right-to-know provision in Art. II, Sect. 9, of
the Montana Constitution. While the Montana Supreme
Court acknowledged this constitutional presumption
in its Opinion, it clarified that “[t]he right to know is
not, however, absolute—it may be overcome when the
demands of individual privacy clearly exceed the merits
of public disclosure.” Krakauer II, ¶ 9 (App.5a) (citing
Great Falls Tribune v. Mont. PSC, 2003 MT 359, ¶
54, 319 Mont. 38, 82 P.3d 876 and Art. II, § 9, Mont.
Const.).
The Maryland Appellate Court in Kirwan also
rejected the University’s additional argument that
student privacy concerns justified nondisclosure under
the state Act, noting the “[w]hen an adult commits or
is formally charged with committing a criminal offense,

20
even a petty one, it is doubtful that any ‘invasion of
privacy’ occasioned by an accurate newspaper report
of the matter is ‘unwarranted.’” Kirwan, 721 A.2d at
203. The Montana Supreme Court in this case
concluded otherwise, reasoning:
[I]nformation contained in a student’s
educational records is broader than that
offered during a public criminal trial, which
is governed by rules of evidence, burdens of
proof, and constitutional protections not
applicable to educational records. The District Court fundamentally erred by holding
the public’s knowledge of the personal information in Doe’s records negated his expectation of privacy in them.

Krakauer II, ¶ 28. (App.15a).
While the Montana Supreme Court relied on a
regulation which the Department of Education adopted
in 2002, after the Kirwan decision, the Maryland
Appellate Court’s decision that FERPA was inapplicable
was based on the definition of “education records,”
and not any definition of “personally identifiable information” contained in those records. Compare Krakauer
II, ¶ 35, n. 7 (App.20a) (citing 34 C.F.R. § 99.3(g) to conclude that FERPA’s “regulations prohibit universities
from releasing a student’s information, even redacted,
when a requestor specifically asks for a student’s
information by name” with Kirwan, 721 A.2d at 204
(“[s]everal courts have taken the position that records
similar to those involved in the present case are not
education records within the meaning of [FERPA]”).
The Maryland Appellate Court in Kirwan rejected
the University’s position that FERPA protected the

21
documents requested by the newspaper, noting that
“in addition to protecting the privacy of students,
Congress intended to prevent educational institutions
from operating in secrecy” and that “[p]rohibiting
disclosure of any document containing a student’s name
would allow universities to operate in secret, which
would be contrary to one of the policies behind
[FERPA].” Kirwan, 721 A.2d at 204. The Court distinguished academic records from those implicating
criminal activity on campus. Kirwan, 721 A.2d at 205.
“Universities could refuse to release information
about criminal activity on campus if students were
involved, claiming that this information constituted
education records, thus keeping very important information from other students, their parents, public
officials, and the public.” Kirwan, 721 A.2d at 204.
By its decision in this case, the Montana Supreme
Court condoned this very practice.
Finally, and directly to the point of this Court’s
evaluation of the petition under Supt. Ct. R. 10(b),
the Maryland Appellate Court held that “[t]he
legislative history of the Family Educational Rights
and Privacy Act indicates that the statute was not
intended to preclude the release of any record simply
because it contained the name of the student.” Kirwan,
721 A.2d at 204. The Maryland Appellate Court specifically held “[p]rohibiting disclosure of any document
containing a student’s name would allow universities
to operate in secret, which would be contrary to one
of the policies behind the Family Educational Rights
and Privacy Act. Universities could refuse to release
information about criminal activity on campus if
students were involved, claiming that this information
constituted education records, this keeping very

22
important information from other students, parents,
public officials and the public. Id.
This holding is in direct conflict with the Montana
Supreme Court’s Opinion in Krakauer II that FERPA,
privacy concerns, and state open-records laws, precluded disclosure of student records implicating potentially criminal activity, if the requestor identified the
student. Indeed, the interpretation of FERPA by the
Montana Supreme Court accomplishes exactly what the
Maryland high court warned could happen: Universities could refuse to release information about criminal
activity on campus if named students were involved.
The Kirwan Court declined to decide the newspapers’ alternative argument regarding the applicability of an exception for “law enforcement records”
under 20 U.S.C. § 1232g(a)(4)(B)(ii). Kirwan, 721 A.2d
at 206. The Court also declined to address the newspaper’s argument that FERPA “does not directly
prohibit the disclosure of protected education records,
that the only enforcement mechanism under the Act
is the withholding of funds from institutions having
‘a policy or practice of permitting the release of
education records,’ 20 U.S.C. § 1232g(b)(1).” Kirwan,
721 A.2d at 206. Krakauer also raised this issue,
with no mention, let alone resolution, from the Montana
Supreme Court.
The Court should be aware that there is a pending
North Carolina Supreme Court case on similar issues.
DTH Media Corporation, et al. v. Folt, et al. In this case,
news media organizations made a public records
request under the North Carolina Public Records Act
to the University of North Carolina at Chapel Hill
(“UNCCH”), the names of students found responsible

23
for rape, sexual assault, or sexual assault, and the
sanction imposed. Specifically, the news media organizations requested “copies of all public records made
or received by [UNCCH] in connection with a person
having been found responsible for rape, sexual assault
or any related or lesser included sexual misconduct
by [UNC-CH’s] Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office.” UNC-CH denied the request on the basis
the requested records were “educational records”
under FERPA and were “protected from disclosure by
FERPA.” DTH Media Corp. v. Folt, 816 S.E.2d 518,
520-21 (N.C. Ct. App. 2018). The trial judge ruled in
UNC-CH’s favor, citing FERPA. The Court of Appeals
reversed, determining that FERPA did not preempt
or conflict with the state’s Public Records Act:
[W]e hold Defendants, as administrators of
a public agency, are required to comply with
Plaintiffs’ request to release the public records
at issue under the Public Records Act.
FERPA’s § 1232g(b)(6)(B) does not prohibit
Defendants’ compliance, to the extent Plaintiffs’ request the names of the offenders, the
nature of each violation, and the sanctions
imposed. Defendants’ arguments are overruled.

DTH Media Corp. v. Folt, 816 S.E.2d at 525-26.
The case is now fully briefed and pending before
the North Carolina Supreme Court. Oral argument was
held August 27, 2019.

24
III. THE QUESTION PRESENTED RAISES A PUBLIC ISSUE
OF NATIONAL IMPORTANCE REGARDING UNIVERSITIES’ PROTECTION OF HIGH PROFILE STUDENT
ATHLETES FROM ALLEGATIONS OF SEXUAL ASSAULT.
This case implicates not only the public’s right to
know how colleges and universities are dealing with
star athletes accused of sexual assault and rape on
campus, but also the more disturbing trend that
educational institutions are hiding behind FERPA to
protect such programs’ revenue potential at the expense
of student welfare and safety. FERPA, designed to
protect students’ interests, is now being abused by
universities to accomplish the opposite. Colleges and
universities with lucrative sports’ programs are
increasingly relying on FERPA to claim confidentiality
in high profile student athletes’ disciplinary records
in order to avoid disclosure of damaging information
which may affect their profits. Allegations are not
investigated, and criminal acts, not prosecuted.
FERPA has become a convenient shield for imageconscious higher educational institutions and does
not serve the purpose for which it was enacted. Indeed,
universities have been criticized for using FERPA’s
non-disclosure provisions for illicit concealment
purposes:
Universities, often to protect their own image
and to stave the free flow of information,
regularly invoke FERPA in response to openrecord requests or press inquiries where the
information sought places the institution in
a negative light. The goal is non-disclosure.
The chorus is student privacy. The tool: the
FERPA defense.

25
Mary Margaret Penrose, Tickets, Tattoos and Other
Tawdry Behavior: How Universities Use Federal Law
to Hide Their Scandals, 33 Cardozo L. Rev. 1555
(April 2012).
The emerging chorus of “student privacy concerns”
has become a catch-all excuse for educational institutions that do not want to disclose records containing
damaging information. Such a practice expands FERPA
beyond its intended and lawful scope. Just as the
Montana Commissioner of Higher Education did in this
case, university officials employ inflated “student
privacy” rhetoric to claim the university’s funding is
in danger when the reality is that FERPA’s constraints are narrow and the reality of funding penalties associated with disclosure, non-existent. It is
worth noting that no educational institution has ever
been penalized since the enactment of FERPA fortyfive years ago. Rob Silverblatt, Hiding Behind Ivory
Towers: Penalizing Schools That Improperly Invoke
Student Privacy to Suppress Open Records Requests,
101 Geo. L.J. 493, 498 (2013).
The likelihood that the federal government would
penalize a university for complying with state openrecords laws in an area of unique public concern is
extremely doubtful. Congress intended only that
FERPA be utilized to penalize the rare educational
institution that carelessly distributes student records.
This case presents the Court with the opportunity to
clarify the confines of FERPA and prevent its abuse
by universities attempting to downplay the severity
of sexual assault on campus, an issue of undeniable
national interest and importance.

26

CONCLUSION
For all of these reasons, and in the interest of
justice, the petition for a writ of certiorari should be
granted.
Respectfully submitted,
PETER MICHAEL MELOY

COUNSEL FOR PETITIONER

MELOY LAW FIRM

P.O. BOX 1241
HELENA, MT 59624
(406) 442-8670
MIKE@MELOYLAWFIRM.COM
OCTOBER 31, 2019

